Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Medicaid Managed Care:
      The Use of Surveys as a
     Beneficiary Protection Tool




                  JUNE GIBBS BROWN
                  Inspector General

                       MAY 1997
                     OEI-01-95-00280
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is
to protect the integrity of the Department of Health and Human Services programs as well as
the health and welfare of beneficiaries served by them. This statutory mission is carried out
through a nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts.
The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.




              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and 

program evaluations (called inspections) that focus on issues of concern to the Department, 

the Congress, and the public. The inspection reports provide findings and recommendations 

on the efficiency, vulnerability, and effectiveness of departmental programs. 


OEI’s Boston Regional Office prepared this report under the direction of Mark. R. Yessian, 

Ph. D., Regional Inspector General. Principal OEI staff included: 


Boston Region                                                  Headquarters 

Joyce M. Greenleaf, Project Leader                             Jennifer Antico, Program Specialist 

Theodore T. Wall, Progam Analyst 



                       For copies of this report, please call 617/565-1050.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Medicaid Managed Care:
      The Use of Surveys as a
     Beneficiary Protection Tool




                   JUNE GIBBS BROWN
                   Inspector General

                        MAY 1997
                      OEI-01-95-00280
               EXECUTIVE                               SUMMARY
PURPOSE: 


To assess the usefulness of beneficiary     surveys as a beneficiary   protection   tool for
Medicaid managed care.

BACKGROUND 


State Medicaid agencies are increasingly enrolling their beneficiaries in full-risk
managed care plans. Beneficiary surveys are among the many tools available to them
as a beneficiary protection. These surveys can be of value in two basic ways:

To Gain Insights on Plan Performance: State Medicaid agencies rely on health plans to
provide the full range of medical services for their enrolled populations.       Overseeing
the plans’ abilities to provide appropriate     services is an important agency function.
Surveys present an opportunity      to give agencies information    about plan performance
from the perspectives    of enrolled beneficiaries.

To Help Benejkiaties Make Informed Enrollment Decisions: Beneficiaries that are
informed about their enrollment decisions and the choices they have are likely to be
better protected than those who are less informed about their choices. Survey results
present an opportunity  to help beneficiaries learn from the experiences of others in
managed care, thereby helping them to make an informed enrollment        choice.




This inspection seeks a deeper understanding       of the usefulness of beneficiary surveys
in the two ways described above. It is based on interviews with the Medicaid agency
leadership in 11 States, site visits to 4 of those States, and a survey of the managed
care plans enrolling Medicaid beneficiaries in all 11 States.

FINDINGS 


Surveys of Limited Use as Ben-y           Protection

To date, surveys provided little useful information about plan performance    to 

Medicaid agencies. Agency leadership found their survey results largely confirming 

what they knew from other sources. They also found them to be of questionable        value 

with regard to the technical quality of care and were reluctant to base corrective 

actions on survey data. 


Surveys have yet to provide beneficiaries with information to help them choose a plan. 

In one groundbreaking   survey, Medicaid beneficiaries found the survey data to be 

“unwieldy.” In general, little is known about what information beneficiaries would like 

to have when faced with a choice of plans. 




                                                i
Agencies and Plans Face Basic Hurdles in Survqbzg Medicaid Bene&iaries

The intermittent  nature of Medicaid eligibility is   such that only about half of the
Medicaid beneficiaries  eligible in one month will     remain eligible 12 months later. Low
response rates also create problems for agencies       and plans. Two-thirds of the plans in
our survey reported response rates of 20 percent        or less in their mail surveys. These
hurdles make such surveys expensive to conduct        in a credible fashion.

Strategic Survey Uses Emerging

Some agencies had some success in using more narrowly focused surveys aimed at
answering questions such as: Are enrolled beneficiaries getting the orientation
information  they need from the health plans ? What information   do beneficiaries want
available to choose a health plan ? Others have presented their survey data in such a
way as to allow comparisons  to average plan scores.

Notwithstanding Limitations, Plans Find Surv~s Usw

In fact, plans conduct surveys even where their contract with the Medicaid agency
lacks a specific survey requirement.   Their survey results have led to a variety of
operational   improvements   and policy changes.




7&e HCFA should either establish a work group or technical advisory group on Medicaid
benejiciary surveys or add surveys to the agenda of an t&ting group. Either group should
provide policy-level guidance on how to make cost-flective use of beneficiary survq.~s.

This group would provide a forum for more targeted policy-level discussion             about the
best use of surveys. At a minimum, the group should address the following              questions:

       b Given that resources are limited, what level of emphasis should Medicaid
       agencies give to using surveys for overseeing performance  and providing
       information  for beneficiary education and choice?

       b How can beneficiary surveys be used more effectively         as a means      for
       overseeing the performance  of managed care plans?

       b How can surveys be used more effectively to provide          information     meaningful
       to beneficiaries faced with a choice of health plans?

       b How can the agencies’ contracts with plans be used to best benefit the
       agencies’ needs for survey information?

       b How can Medicaid     agencies   best deal with the hurdles    inherent     in surveying    a
       Medicaid population?


                                              ii
The HCFA should devote greater attention to how the Medicaid agencies are using
ben@ciary survqs. It should revise its written guides for reviewing and monitoring
Medicaid managed care init&ivtz~ to call attention to the knportance of using ben@cimy
surveys in more focuse4&strategic ways.

Toward    that end, it should consider   adding the questions   below to its guides:

         b What does the agency aim to achieve with its beneficiary       surveys?     To what
         extent is it related to beneficiary protection?

         b How narrowly has it defined the survey’s purpose?     Could a more targeted
         use of a survey enhance its value as a beneficiary protection tool?

         b Will the survey fill a gap in the agency’s system for overseeing quality in the
         health plans? Will it provide information that the agency knows beneficiaries
         rely upon in choosing a health plan?

         b Does the agency have a cost-effective plan for overcoming        the hurdles
         associated with surveying Medicaid beneficiaries?

         b Has the agency weighed the relative costs of surveying      beneficiaries   with the
         relative usefulness of the survey results?

CoMMENTsoNmDm                   REPORT

We solicited and received comments on the draft report from HCFA and the 

American Association of Health Plans (AAHP).        We include the complete text of their 

comments in appendix C. Below we summarize the major comments on our 

recommendations    and, in italics, summarize our responses. 


The HCFA partially concurred with our recommendation            on establishing a group for 

policy-level guidance on making cost-effective use of beneficiary surveys. It noted its 

existing Medicaid Managed Care Technical Advisory Group could fulfill this role. It 

also noted its ongoing collaboration with the Agency for Health Care Policy and 

Research, which is leading the Consumer Assessment of Health Plans Study. The 

AAHP supported      our recommendation      and suggested HCFA include some health plan 

representatives  in the group. We recognize that HCFA’s existing group could be 

appropriate to provide a forum for policy-level discussion about the use of surveys. We 

appreciate AAHP’s support of our recommendation and urge HCFA to consider including 

health plan representatives in its group for this discussion. 


Our second recommendation      called for HCFA to devote greater attention to how 

Medicaid agencies are using surveys and to revise its written guides toward that end. 

The HCFA concurred with points made in our text: that some surveys have multiple 

objectives and need to be more focused. The HCFA plans to include a special session 

on surveys in its annual Medicaid Managed Care College and will stress the 



                                               ...
                                               111
importance    of surveys in its technical assistance to HCFA regional office and State
Medicaid staff. The AAHP supported our recommendation.            We welcome HCFA’.s
plans for survey sessions at its Managed Care College and through its ongoing technical
assistance. We urge it to use these venues to stress more strategic and focused uses of
surveys. And we reemphasize the need for HCFA to revise its written guides for reviewing
Medicaid managed care initiatives. In its comments, HCFA did not indicate that it would
revise these guides along the lines we suggested. We appreciate AAHP’s support of our
recommendation.




                                           iv
                        TABLE                             OF                CONTENTS
EXECUTIVESUMMARY 


INTRODUCJTION               .................................................                                                             1


FINDINGS        ......................................................                                                                    3


 � Surveys     of Limited          Use as a Beneficiary                     Protection               ......................               3


 � Basic   Hurdles       Faced in Surveying                     Medicaid           Population               ...................           6


 � Strategic    Survey Uses Emerging                          ....................................                                        8


 � Notwithstanding            Limitations,            Plans Find Surveys Useful                                ..................         9


RECOMMENDATIONS                          ...........................................                                                  11 


COMMENTS ON THE DRAFT REPORT                                                 .............................                            14 


APPENDICES 


A: Background         on Medicaid              Managed             Care ............................                                A-l

B: Methodology           ................................................                                                           B-l

C: Complete      Comments              on the Draft Report                         .........................                        C-l

D: Endnotes       ...................................................                                                               D-l
                           INTRODUCTION
PURPOSE 


To assess the usefulness of beneficiary    surveys as a beneficiary   protection   tool for
Medicaid managed care.




         Surveys of consumers enrolled in managed care plans are becoming increasingly
popular.    They can provide important insights to the managed care experience.        The
surveys’ results can be used to market a specific health plan, promote managed care
as a delivery system, or simply answer research questions.       In fact, the Health Care
Financing Administration     (HCFA) often requires Medicaid agencies implementing          ’
managed care waivers to conduct surveys. And for any of the agencies that are
increasingly enrolling their beneficiaries into managed care plans (see appendix A for
more background      on Medicaid and managed care), surveys can be helpful in another
way: beneficiary protection.    In that regard they can be of value in two basic ways: to
gain insights on plan performance      and to help beneficiaries make educated enrollment
choices.

       To Gain Insights on Plan Pe$onnance:         State Medicaid agencies rely on health 

       plans to provide the full range of medical services for their enrolled 

       populations.      Overseeing the plans’ abilities to provide appropriate    services is 

       an important agency function.       Surveys present an opportunity     to give agencies 

       information      about plan performance   from the perspectives   of enrolled 

       beneficiaries. 


       To Help Benejiciaties Make Informed Enrollment Deckions: Beneficiaries that 

       are informed about their enrollment decisions and the choices they have are 

       likely to be better protected than those who are less informed about their 

       choices. Survey results present an opportunity  to help beneficiaries learn from 

       the experiences of others in managed care, thereby helping them to make an 

       informed enrollment choice. 


         Of course, surveys are not the only tools available to State agencies for
beneficiary protection; they are one of many. ’ For example, Medicaid agencies rely
on their contracts, plan site visits, complaints, focus groups, and encounter data,
among others means, to protect beneficiaries.      But surveys, like complaints, are one of
the few tools that actually require some direct interactions between the beneficiaries
and the agency.




                                                1

THIS INQUIRY 


          The HCFA recently issued a guide for States to help them develop customer
satisfaction surveys.’ It provides some tips on developing surveys, an inventory of
recent surveys, and contact people at the agencies for those interested in further
information.

         This inspection seeks a deeper understanding     of the usefulness of surveys as
beneficiary protection tools in the two ways described above: plan performance         and
beneficiary education.    Such an understanding    is becoming increasingly important as
the proportion    of Medicaid beneficiaries enrolled in managed care plans continues to
mount.     Our focus in this inspection is on mail and telephone surveys rather than
focus group surveys. We know little now about how effective such mail and telephone
surveys have been as a beneficiary protection tool. This inspection also offers some
assessment, from the perspective of the Medicaid managed care leadership, of the
surveys included in HCFA’s recent guide.




         In conducting this inspection, we interviewed the Medicaid agency leadership in
11 States that have enrolled significant numbers of Medicaid beneficiaries     into full-risk
managed care plans. 3 All of the 11 States in our study have had experience in
surveying, directly or through contractors, their Medicaid populations.    Most often,
they conducted satisfaction and disenrollment      surveys and used a mail or telephone
approach.     A few agencies also conducted some focus groups. For this inspection, we
drew on the 11 agencies’ experiences with mail and telephone surveys rather than
focus groups. We also conducted our own survey of full-risk managed care plans
enrolling Medicaid beneficiaries in those States. (See appendix B for more detailed
information    on our methodology).

        We conducted this inspection    in accordance with the Quality Standards for
Inspections issued by the President’s   Council on Integrity and Efficiency.




                                              2

                                    FINDINGS
Surveys, as current& used by the 11 State Medicaid agencies in our sample, are of limited
value as a beqticiq   protection.

        b Surveys provide little useful information about plan performance to Medicaid
        agencies.

        All of the 11 agencies in our study            The 1995 Minnesota HDI Sumy
had experience with surveying beneficiaries
over the past 2 to 3 years. Eight of the               in the spring of lPPS, the Minnesota
11 conducted recent surveys that included              Health Data Pnstituie (HDI)--a
goals of assessing plans’ performance;     3 of        public-private organization created by
these surveys were still underway at this              the State in 1993 to improve health
writing. The bulk of their experience was              care for Minnesotans--surveyed
with satisfaction and disenrollment    surveys.        17,591 Minnesotans enrolled in 46
                                                       plans, including Medicaid, Medicare,
         According to the agency leadership,           arid the private& insured. HDl’s
neither satisfaction nor disenrollment                 goals were to provide “‘standardized
surveys provided much in the way of new                measurement of health plaan
insights into plan performance.      The               performance” to consumers,
insights they gained about plan                        purchasers, and plans,
performance     from satisfaction surveys were
largely limited to enrollee perceptions            After the survey, HDI contracted for
about customer service issues, such as             the proje& evahation. One issue
waiting times. While relevant to a plan’s          the evaluation explored was whether
performance,     the agency officials pointed      the survey results helped policymakers
out that they were already aware of such           monitor and evaluate health system
concerns through other means, such as              perJonnance+ In the evaluation
complaints and contract compliance visits.         report, policymakers did not identify
Disenrollment     surveys were similarly           any ways the survey helped them
disappointing.     Although thousands of           monitor pefownance.
beneficiaries   disenrolled from plans every
                                                   (Source: Mimesotu Health Data &.&A& 1995
month, only a small percent--often
                                                   Corz.wner Sufvty Evaluation Report, Ju+ 1996)
1 percent or less--disenrolled    voluntarily;
most disenrolled due to a loss of eligibility.
So the pool of potential survey          -     -
respondents    from which to gain insight into the performance        of any one plan was
limited. One agency used over 100 different codes to reflect reasons for
disenrollment.     With so many codes for so few disenrollees, it is unlikely a pattern
would emerge to provide insight into plan performance.

         Agency leadership also indicated that surveys had little value with regard to
technical quality of care (meaning examinations, follow-through     and treatment).4  For
assessing technical quality of care, they relied more heavily on other indicators of
performance,    such as encounter data, medical record reviews, contract compliance,



                                                  3

and complaints. ’ Surveys are a limited tool to gain insight into so complex a topic as
the quality of care. Agency leadership questioned the meaning of satisfaction data:
could care that is truly managed lead to lower satisfaction due to restricted access to
specialists?   They questioned the link between satisfaction and quality. They noted
that surveys were not good sources for identifying poor quality-of-care.     Indeed, high
satisfaction and poor quality can occur simultaneously,    as the Massachusetts   agency
learned when its plans with the highest scores on quality indicators scored lower in
satisfaction.6  Two officials noted that while the plans’ performance   matters to the
agency, it is the physicians that matter most to the beneficiaries.

         What surveys revealed about the plans versus what they revealed about the
physicians or group practices complicated   their usefulness in certain markets.   For
example, in the Twin Cities area of Minnesota and certain markets in Missouri, plan
networks overlap considerably.   This means many of the same physicians and group
practices participate in the same plans, so plan-specific interpretations of survey data
become questionable.

         To date, the agencies have been unable to rely on survey data to make many
useful distinctions over time or among plans. For example, the 11 States in our study
have yet to conduct the same survey twice, which would allow them to compare results
over time.7 Also, survey results, such as satisfaction scores, tended to cluster at the
high end. Officials from two agencies’ leadership noted that their surveys would
establish a baseline for future comparisons--in   one case a previous survey aimed to do
the same but low response rates rendered it unusable.

         In most cases, agency officials reported they would be reluctant to direct
corrective actions to plans based on survey data alone. One agency official referred to
the survey data as “too anecdotal” to base any formal corrective actions. An official in
another State intended to establish minimum performance          levels, or benchmarks,  for
future surveys. The agency would penalize or direct some action against plans failing
to score above the benchmarks.       For satisfaction--on  which all the plans in the State
had scored in the 90s on the most recent survey--the official was considering a
benchmark     of just 70 percent, thus it is unlikely the benchmarks would be unmet.
Most agencies did, however, share their survey results with their plans and expected
the data to prompt improvements.




                                             4

       b The surveys have yet to provide beneficiaries with information to help them
       choose a plan.

        Of the 11 Agencies in our study,
6 had completed     or were in the process          7he 1995 A4hwmta HDI Survey
of completing surveys that included
getting information    back to beneficiaries        In October of 1995j 60 newspapers
as a goal. At the time of this writing, all         across the State published the results of
but one of these surveys were still                 the survey as an insert to the Sunday
underway.                                           edition. The results were also available
                                                    in libran-es.
        In Minnesota, county staff
educate the Medicaid beneficiaries about
their health plan choices. An evaluation of the HDI survey found that while widely
disseminated,   consumers in general did not find it especially helpful in choosing a
health plan.* It also found, through a focus group, that Medicaid beneficiaries    found
the information   to be “unwieldy,” a sentiment reflected in the two counties we visited.
The staff there responsible for counseling beneficiaries about their plan choices did
not use the HDI survey results to help beneficiaries make a choice, saying it contained
“too much information    to be useful.”

         Though widely heralded as a groundbreaking     survey, the HDI experience raises
some important questions about what is really known about what consumers, and
particularly Medicaid beneficiaries, want to know when faced with a choice of plans.
How important is survey data, such as satisfaction scores or waiting times? The
Massachusetts   agency has a project underway that aims to measure how useful its
report cards are to beneficiaries faced with a choice of plans. The report card
includes data from satisfaction surveys, as well as some quality indicators and other
information.   That agency plans to survey its newly enrolled beneficiaries  and assess
the report card’s impact on their choice of plans. In Oregon, where a consumer
scorecard project funded by the Federal government       has been underway, officials
learned that consumers are “primarily interested in the quality of services offered by
their doctors and hospitals, and less interested in data on their health plan itself.“’
Other researchers have come to different conclusions: “...research by the Picker
Institute and others seems to show that patients and consumers don’t yet know what
measures are actually meaningful to them.“”      Some research has suggested that
consumers tend to find satisfaction data suspect and prefer relying on their own family
members and friends when choosing a plan.ll




                                               5

Both agencies and plans face basic hurdles in survqirzg the Medicaid population.

       w Intermittent Eligibility

        Historically, Medicaid eligibility
has been tied to programs that provide
temporary assistance such as Aid to                  b
Families with Dependent        Children.
Thus, beneficiaries     tend to come in and
out of eligibility as their income and                                           Percent
family composition      changes. The                         Month             Continuously
                                                                                 Enrolled
HEDIS Work Group compiled data on
the extent to which beneficiaries were                          1             100%
continuously    enrolled over a 36-month                        6              14%
period (see table l).l’ That data shows
                                                                12             55%
a steady decline in continuous
enrollment, with just 55 percent enrolled                      24              29%
for 1 year, 29 percent for 2 years, and                        36              17%
 17 percent for 3 years.
                                                         Note: Based on 8 States’ experiences
                                                         from 1O/91 through 12193
         The relatively short lengths of                 Source: Medicaid HEDIS DraJ?, July
                                                         199.5
time that beneficiaries    are enrolled limits
the extent of their opportunity     to have
much contact with or receive care from
the plans. Thus the universe from which
an agency or plan would draw its survey sample is also limited. In fact, 78 percent of
plans responding to our survey identified intermittent   eligibility as an obstacle to using
surveys. Thirty-eight percent identified it as a major obstacle. The plans identified
intermittent  eligibility as an obstacle more often than anything else. In the words of
some plan officials, members are simply “not enrolled long enough to use services” and
“on and off again eligibility...do not lend themselves to a meaningful managed care
experience.”

        b Low Response Rates

        Both plans and agencies reported low response rates with their surveys. In fact,
according to our survey of plans, 66 percent of the plans that had conducted a mail
survey of their Medicaid enrollees had response rates of 20 percent or less. Low
response rates were common in the agencies, too. Indeed, in Massachusetts       the
agency was able to contact just 7 percent of its sample in one survey. The Missouri
agency expanded its sample after the response rate to its first mailing was just
8 percent.  And early experiences with surveys in Florida, Oregon, and Utah had
response rates too low for the survey results to be usable.

       Many factors contribute to low response rates within the Medicaid population.
Medicaid populations  tend to be more transient than other populations, meaning


                                              6

agencies and plans often contend with outdated addresses and telephone numbers.         In 

Ohio, the agency found about 70 percent of its sample population to be either invalid 

or with incorrect phone numbers.    Differences in language and literacy skills--either on 

the part of the agency or plan administering   the survey or on the part of the 

beneficiary responding to the survey--also lead to low response rates. Two-thirds of 

the plans responding to our survey identified literacy problems and half identified 

language problems as obstacles to using surveys. 


       b costs



        Conducting credible surveys is costly. It requires well-thought out methodology,
and sampling designs, carefully constructed questions, adequate response rates, and
careful analysis. Each of those stages can tax a plan or agency’s staff, time, and funds.
For example, agencies and plans often lack the experience or skills needed to develop
a credible questionnaire.13   One agency official pointed out that its earlier experience
with surveying enrollees failed in large part due to poor survey design. Thirty-two
percent of the plans in our survey identified the lack of a suitable off-the-shelf
questionnaire   as an obstacle to using surveys; 23 percent identified their limited
capacity to develop their own questionnaires     as an obstacle.

        Even if an agency or plan has a suitable questionnaire,    actually carrying out the
survey can be labor-intensive.   It can involve making calls, stuffing and labeling
envelopes, tracking responses, targeting follow-up, and analyzing responses, among
other tasks--or at a minimum:     overseeing the contractor’s work. One agency shared
the costs of its mail survey by requiring the plans to mail the questionnaire     themselves.
Forty percent of the responding plans in our survey identified limited capacity to
administer surveys and 33 percent identified limited capacity to assess results as
obstacles to using them.

        Among agencies, costs are also high. For example, to achieve respectable
response rates, the Oregon agency used an intensive 5-step process that involved, in
multiple languages:  an advance letter mailing, an initial survey mailing, a reminder
postcard, a second survey mailing, and a second reminder postcard or phone call. The
Oregon agency’s intensive effort paid off with a 63 percent response rate. Officials
there note, however, that “it is too much to do annually.”

        Other agencies have undertaken      similarly intensive survey projects. For
example, the Utah agency also undertook a survey that involved agency and field staff­
-as opposed to a contractor--making     calls to a sample of 1,000 enrolled beneficiaries.
They completed     579 surveys over a 2-month period, resulting in an adjusted response
rate of 73 percent.r4   The Florida agency is also in the midst of its intensive survey
effort that involves multiple mailings, similar to the Oregon effort. As of this writing,
Florida has a response rate in the low 30s and is extending its surveying by 5 weeks.




                                              7

Some agencies are beginning to use surveys in strategic ways, with potentially promising
results.

       b More Focused Surveys

          Much of agencies’ experiences to
date has been with large-scale
satisfaction surveys that aimed to meet
multiple objectives.   But some agencies
have conducted surveys with a narrower
focus and found the results to be quite
useful. In the words of one agency
leader, “The usefulness of surveys is
likely to be closely correlated to how
focused they are.”

         The survey described at the right
is an example of a focused survey
designed to meet specific information
needs of the agency. We also learned of
another focused survey in Utah, where
agency staff spent some late nights in
hospital emergency rooms interviewing Medicaid beneficiaries.    That survey gave the
agency new insights into inappropriate     emergency room usage and led to changes in
its policies on emergency room copayments and reimbursement.

        Other agencies have had similar success with narrowly focused surveys. For
example, the Rhode Island agency conducted two surveys: one to determine what
factors beneficiaries relied upon to select their health plans and one to determine
what factors they relied upon to choose a primary care physician.    The Massachusetts
enrollment broker reduced its field staff from 45 to 10 based in part on information
learned through a focused survey.

       b Better Presentation of Survey Data

        As we have seen, to date the agencies in our study have not repeated the same
survey, thereby    precluding them from presenting survey results over time.
Nonetheless,   some agencies have presented their survey data in such a way as to
maximize its utility. For example, the Oregon agency divided its presentation  of
survey results between plans in urban and rural areas. It included the average scores
for plans in each area, and used colors to indicate which plan’s scores were above or
below average. Of course, whether the average score was good or bad is unknown.
Nevertheless,   presenting the data with an average provided some context in
understanding    one plan’s performance  relative to the average.




                                             8
Notwithstanding the limitations of benejkiiuy surveys, health plans still jind them to be of
some use in identijjhg and responding to enrollee concerns.

       b Plans Conduct Surveys Even Without Contractual Requirements

         Eight of the 11 agencies in our sample required that the plans they contract
with conduct surveys. According to our survey, the majority of plans responding from
all 11 States had surveyed Medicaid beneficiaries in the past 2 years.r5 Yet even
plans without the contractual requirement    conducted surveys. In fact, the majority of
responding plans (85 percent) from those 3 States conducted surveys anyway. On
average, the plans responding from those States conducted about 4 surveys over the
past 2 years. Overall, 83 percent of the responding plans surveyed their memberships,
including Medicaid, an average of about 5 times over the past 2 years.

         The actual contract requirements
regarding surveys varied from agency to             Institutionalizing the Sw~ty &3txxs
agency, but overall, the contract
language regarding surveys was quite              One Medicaid-only plan we visited had
limited. Seven of the eight contracts             institutionalized its surveys so that each
required the plans to conduct the                 quarteq it sent out satisfaction surveys
surveys annually and to report results to         to a 25 percmt random sampEe of
the agencies, but none specified                  members who had been continuously
methodologies    for the plans to use. Two        enroiled for tj months. Each month it
contracts specified that the survey must          sent out disenrolbnent surveys to
cover “perceived problems in quality,             fOUpercent of voluntary disenrollees,
availability, and accessibility” of health        Both surveys are in English and
care services, but the others lacked              Spanish, Response rates hovered
specific requirements    for the surveys’         around 10 percent for these surveys,
contents.                                         and the plan considered the results a
                                                  roiling mme of feedback to share with
         The lack of many specific                itsproviders.
contractual requirements     allows plans
great latitude in surveying beneficiaries,
and we found great variation among the plans’ approaches to surveying.16 For
example, for their most recent survey, 64 percent of plans conducted a mail survey,
24 percent telephone,     and about 4 percent each self-administered,   in-person, and focus
group. Plans also often surveyed their whole membership,        rather than just Medicaid
beneficiaries.   In fact, 44 percent of responding plans reported that their most recent
survey included non-Medicaid       enrollees. Targeting certain Medicaid enrollees for
recent surveys was also common among responding plans. Of the 80 percent that
targeted in some way, 51 percent targeted Medicaid disenrollees; 45 percent, Medicaid
enrollees in certain geographic areas; 44 percent, users of certain Medicaid services;
33 percent, users of certain physicians; and 26 percent, Medicaid enrollees with certain
diagnoses.




                                             9

        w Plan Surveys Lead to Improvements

         Even though plans face the same
hurdles--such   as low response rates--as                  Percent of Plans Rating Surveys as
agencies in surveying their Medicaid                       Us&i for IdentifLig Medicaid Emlke
enrollees, the plans in our own survey                     Con~ems About.-
routinely surveyed their memberships.
Their surveys gave them some cues                          Quality of Care              75%
about what mattered to their                               (interpersonul communication, listening
memberships,     thereby guiding their                     responsiveness, manne;r, courtesy)
improvements      and helping them
compete.r7                                                 Quality of Customer Service
                                                                                           73%
         The operational   focus of plans’                 (responsiveness to questiovts, concerns,
surveys is evident by the variety of                       and complaints)
changes they prompted within the plans.
Indeed, 56 percent of the responding                       Waiting Times              6.5%
plans explained their surveys’ usefulness                  (for appointments, and in waiting and
in terms of the improvements       to which                exam rooms)
they led. This reflects national trends in
health plans using surveys: in 1995,                       Access                       55%
virtually all plans--99 percent--reported                  (to specialty care such as mental
using of surveys for quality improvement,                  health, prenatal, substance abuse, and
provider feedback, and marketing.‘*                        to emergency rooms)

         According to our survey, plans        Technical Quality of Care 365%
made both operational     and policy           (examinations>follow-through, and
changes based on insights they gained          treatment)
from surveying their Medicaid enrollees.
For example, they expanded their               Note: Categories a&pted$om     the oraft Medicaid HEDIS 

                                               document, .iu& 1995. N=69-79. 

provider networks, translated written          Source: 1996 DIG Sutvq. 

materials, revised prescription   drug
policies, added toll-free telephone lines,
changed referral policies, and increased hours of operation, among others. A few
plans also noted that they used surveys to give feedback to their physicians, and in
some cases, had established incentives for physicians who scored high on surveys.




                                                    10 

                     RECOMMENDATIONS
         This report raises some questions about the usefulness and cost-effectiveness        of
surveys in protecting beneficiaries from the vulnerabilities    associated with full-risk
managed care plans. There are two basic ways in which surveys can serve as a
beneficiary protection tool: (1) to provide Medicaid agencies with information         on the
performance     of the plans enrolling Medicaid beneficiaries,   and (2) to provide the
beneficiaries   facing a choice of health plans information to help them choose. Given
the partnership     nature of the Medicaid program, the Federal and State governments
should work cooperatively      to identify ways in which surveys can best be used as a cost-
effective beneficiary protection tool. Toward that end, we direct the following
recommendations        to the Health Care Financing Administration:

The HCFA should either establkh a work group or technical advisory group on Medicaid
benejkiary survqs or add surveys to the agenda of an existing group. Either group should
provide policy-level guidance on how to make cost-effective use of benejkia~ surveys.

         Such a group would provide a forum for more targeted policy-level discussion
amongst State Medicaid leadership on how to best use surveys as a beneficiary
protection.   Medicaid policymakers need to figure out how surveys can best fit in with
the array of beneficiary protection tools, such as encounter data and HEDIS and
contracts, at their disposal. The involvement of officials at the policy level is key,
because without direction from that level, the danger exists that the group will become
consumed with the methodological     minutiae of conducting surveys rather than the
information   needs they can fill.

       The survey group should aim to build on the existing “Customer Satisfaction
Surveys for Medicaid Beneficiaries:  A State Guide” recently issued by HCFA. At a
minimum, the group should address the following questions with an eye toward
maximizing surveys’ potential as a beneficiary protection tool:

        b Given that resources are limited, what level of emphasis should Medicaid
        agencies give to using surveys for overseeing performance  and providing
        information  for beneficiary education and choice?

               Medicaid agencies need to maximize the potential of surveys as a
               beneficiary protection tool, and this will involve tough choices. Using a
               single survey to serve multiple objectives can limit its effectiveness in
               meeting any one objective.     Conducting a survey and having credible
               data takes an intensive effort. Medicaid agencies need to consider the
               strengths and weaknesses of their existing beneficiary protection systems
               and weigh the relative merit of using a survey for oversight or
               educational purposes.




                                                11 

b How can beneficiary surveys be used more effectively         as a means     for
overseeing the performance  of health plans?

      Medicaid agencies rely on a variety of data and information       to assess the
      performance    of managed care plans. Surveys could serve to provide
      information   about topics which other oversight tools fail to address or
      address insufficiently.  For example, surveys could be used to gain a
      better understanding    of the experiences of the chronically ill or of those
      enrolled in managed care but not receiving services (do they consider
      themselves healthy? do they know they are enrolled? do they know how
      to access services?).

b How can surveys be used more effectively to provide          information    meaningful
to beneficiaries faced with a choice of health plans?

       The Agency for Health Care Policy and Research (AHCPR) is engaged
       in a 5-year Consumer Assessment of Health Plan Survey project aimed
       at using surveys to develop report cards for consumers facing a choice of
       plans. l9 What can Medicaid agencies learn from this project?  What is
       known about what types of information Medicaid beneficiaries   need
       when making a choice?

b How can the agencies’ contracts with managed        care plans best benefit       the
agencies’ needs for survey information?

       Medicaid agencies have an opportunity with their contracts to call for
       the plans to conduct specific surveys and even to stipulate the sampling
       design, the question phrasing, and the survey methodology.    How shoulc
       agencies best take advantage of that opportunity?    Should they aim to
       have all their plans conduct uniform surveys according to contract
       specifications?

b How can Medicaid     agencies   best deal with the hurdles    inherent     in surveying   a
Medicaid population?

       Conducting a credible survey always requires careful consideration      to a
       variety of methodological    issues, such as sampling and approach
       (telephone,  mail, or in-person, for example).     But surveying a Medicaid
       population presents unique hurdles, such as short and discontinuous
       eligibility.




                                       12 

The HCFA should devote greater attention to how the Medicaid agencim are using
bene&imy survqs. It should revise its written guides for reviewing and nwnitoring
Medicaid managed care initiativ~ to call attention to the importance of using benejicky
surveys in more focused,
                      strategic ways.

        The HCFA already identifies surveys and their uses as a point of review in its
guides for reviewing and monitoring Medicaid managed care initiatives.20 It could,
however, enhance the attention it gives to surveys by incorporating  greater discussion,
inquiry, and assessment of agencies’ use of surveys at each point for formal review or
monitoring.   Toward that end, it should consider adding the questions below to its
guides:

       b What does the agency aim to achieve with its beneficiary      surveys?     To what
       extent is it related to beneficiary protection?

       b How narrowly has it defined the survey’s purpose?     Could a more targeted
       use of a survey enhance its value as a beneficiary protection tool?

       b Will the survey fill a gap in the agency’s system for overseeing quality in the
       health plans? Will it provide information that the agency knows beneficiaries
       rely upon in choosing a health plan?

       b Does the agency have a cost-effective plan for overcoming       the hurdles
       associated with surveying Medicaid beneficiaries?

       b Has the agency weighed the relative costs of surveying     beneficiaries   with the
       relative usefulness of the survey results?




                                            13 

 COMMENTS                      ON       THE         DRAFT              REPORT

        We solicited and received comments on the draft report from the Health Care
Financing Administration     (HCFA) and the American Association of Health Plans
(AAHP).    We include the complete text of the detailed comments in appendix C.
Below, we summarize HCFA’s and AAHP’s major comments on the recommendations
and then, in italics, offer our responses.

RECOMMENDATIONSFROMTHE              DRAFT REPORT 


T%eHCFA should either establish a work group or technical adtiory group on Medicaid
benej?ciary surveys or add surveys to the agenda of an existing group. Either group should
provide policy-level guidance on how to make cost-flective uses of benejZiary surveys.

         The HCFA partially concurred with this recommendation.       It pointed out that
its existing Medicaid Managed Care Technical Advisory Group has a work group
currently working on consumer information and surveys. The HCFA agreed with our
assessment that agencies often conduct surveys for multiple purposes but disagreed
with our assessment that these were often of limited value. The HCFA pointed out
that it is not feasible for States to develop single-purpose surveys. It further noted
that it believes States have obtained some meaningful information      from surveys, even
where that information was not what the State intended to acquire. And it noted its
ongoing collaboration    with the Agency for Health Care Policy and Research, which is
leading the Consumer Assessment of Health Plans Study.

        The AAHP supported this recommendation         and suggested that HCFA include
some health plans in this work group. It reinforced the importance      of weighing the
relative costs of surveys with the relative usefulness of the survey results for not only
State agencies but also health plans.

       We recognize that HCFA’s Technical Advisory Group could be an appropriate
group to provide policy-level guidance on the cost-effective use of beneficiary surveys and
we urge it to continue collaborating on the Consumer Assessment project. We maintain,
however, that based on this inquiry, narrowly focused surveys have been more useful to
State agencies as a beneficiary protection tool.

        We appreciate AAHP’s support for our recommendation and urge HCFA to
consider including health plan representatives in its Technical Advisory Group to discuss
the cost-effective use of surveys.




                                             14 

The HCFA should devote greater attention to how the Medicaid agencies are using
benejkiay surveys. It should revire its written guides for reviewing and monitoring
Medicaid managed care intitivm to call attention to the importance of using benejitiry
surveys in more focus4 strategic ways.

         The HCFA concurred with points raised in our findings and text: that some
surveys have multiple objectives and need to be more focused.          It pointed out that
surveys are a very important part of State agencies’ requirements         under the Quality
Assurance Reform Initiative, which is being replaced with a system of standards for
both Medicare and Medicaid.        It anticipates that surveys will be an important
component     of that new system. The HCFA plans to include a special session on
survey development     and use of survey data in its annual Managed Care College and
will stress the importance   of surveys in its technical assistance to HCFA regional office
and State Medicaid staff.

       The AAHP     supported   this recommendation.

        We welcome HCFA ‘s plans for survey sessions at its Managed Care College and
through its ongoing technical assistance and urge it to use these venues to stress more
focused and strategic uses of surveys. And we reemphasize the need for HCFA to revise
its written guides for reviewing and monitoring Medicaid managed care initiatives. In its
comments, HCFA did not indicate that it would revise these guides along the lines we
suggested.

       We appreciate AAHP’s support of our recommendation.




                                              15 

                             APPENDIX                   A
                    BACKGROUNDONMEDICAIDMANAGEDCARE 


Medicaid Expansion into Managed Care Programs

        Over the past 15 years, States have increasingly used managed care to provide
medical services for Medicaid beneficiaries.   This trend has accelerated in the past few
years: in 1991, 2.7 million Medicaid beneficiaries were enrolled in managed care, by
1993, that number grew to 4.8 million, and in 1996, 13 million. As of June 1996,
39 percent of all Medicaid beneficiaries were enrolled in some kind of managed care
arrangement.

         To date, States have primarily enrolled adults and children in low-income
families into managed care, whereas aged or disabled beneficiaries remain under fee-
for-service systems. By 1996, over 500 managed care organizations were providing
services to 13 million Medicaid beneficiaries.

        The movement to enroll Medicaid beneficiaries in managed care began in
earnest in the early 198Os, as States experienced significant fiscal pressures due to
rising Medicaid costs. While States viewed managed care as a way to contain
Medicaid costs, they were constrained by Federal standards required for Medicaid
enrollment  in managed care.

        In response to mounting concerns, Congress allowed States greater flexibility to
deviate from those standards through amendments      to the 1981 Omnibus Budget
Reconciliation   Act.21 For example, the amendments     allow States to pursue freedom-
of-choice waivers (under section 1915 of the Social Security Act) that release them
from certain Federal provisions, such as the free-choice-of-provider   provision.  To
date, 42 States have freedom-of-choice   waivers.

        States also can receive research and demonstration    waivers under section
1115 of the Social Security Act. Since 1992, many States have aggressively pursued
such waivers. States implementing      or pursuing 1115 waivers often extend, as a part of
their demonstration,   insurance benefits to those not otherwise eligible for Medicaid,
such as the working poor and their families. As of this writing, HCFA has approved
18 research and demonstration     waivers. Of those, 12 States have implemented     their
programs, 5 are pending implementation,       and one has no plans to implement.22    The
HCFA is currently reviewing nine States’ applications.23




                                           A -1 

Defining Managed Care

        Although managed care organizations vary, they generally feature a focus on
primary, preventive health care and care coordination.      That focus is believed to
improve care and access for enrollees.    It is also thought to promote cost containment,
thus slowing the rate of increase in health care spending.

        The managed care organizations enrolling Medicaid beneficiaries          can generally
be defined as fitting into one of two basic types: health maintenance         organizations
and fee-for-service     primary care case management       (PCCM) programs.     Both types
feature coordinated      care. But each carries a different level of financial risk. Health
maintenance     organizations   (hereafter referred to as health plans or plans) are full-risk
plans that contract with Medicaid for a fixed fee per person and provide
comprehensive      services. 24 PCCM programs comprise providers, usually primary care
physicians, willing to serve as gatekeepers      and take responsibility for approving and
coordinating   enrollees’ care. Medicaid pays PCCM providers on a fee-for-service
basis, but they receive a case management         fee to cover their added responsibilities.
Thus PCCM providers are at no financial risk.

        Some agencies also contract with plans separately for certain aspects of care,
such as mental health, substance abuse, and dental care. The arrangements       for these
“carve-outs” vary in terms of the services included and the level of financial risk the
plan assumes.




                                              A -2 

                               APPENDIX                   B


       We drew on three major sources of data for this study: (1) interviews with the
Medicaid managed care leadership in 11 States, (2) a survey of the full-risk managed
care plans enrolling beneficiaries in those 11 States, and (3) the model contracts used
by the Medicaid agencies in contracting with the managed care plans.

II Participating State Medicaid Agencies

         At the outset of our study, we chose the 13 State Medicaid programs that had
made a significant commitment        to enrolling their beneficiaries in full-risk managed
care plans, represented    different geographic areas of the country, and with waivers in
various stages of approval or implementation.          Medicaid agencies in 11 of these States
participated:  Arizona, California, Florida, Massachusetts,       Minnesota, Missouri, New
York, Ohio, Oregon, Rhode Island, and Utah. Two State agencies declined to
participate.    Of the participating    11 States, 6 had approved and implemented
1115 waivers (Arizona, California, Minnesota, Ohio, Oregon, and Rhode Island), 2 had
approved waivers pending implementation           (Florida and Massachusetts),     and 3 had
pending waivers (Missouri, New York, and Utah). Together, the 11 States represent
about 37 percent of all Medicaid beneficiaries in the country. The results of our study
are not generalizable   to other State Medicaid agencies.

Interviews and Site Viits

         We conducted structured telephone interviews with the Medicaid managed care
leadership in eight of the State Medicaid agencies. We visited the Medicaid agencies
in five of the States on one or more occasions to conduct the interviews in person and
meet with additional agency staff, advocates, and representatives  of the State’s
legislature and managed care plans. We conducted site visits in California,
Massachusetts,   Minnesota, Rhode Island, and Utah. During both the telephone
interviews and site visits we collected any relevant documents such as survey reports,
contracts, and evaluations.

Contract Review

        We reviewed the model contracts      in use at the time of our interviews   for
requirements  related to surveys.

Survey   ofFull-Risk Managed   Care Plans in 11 States

         We received lists of full-risk managed care plans enrolling Medicaid
beneficiaries   from each of the 11 agencies in our sample. We then sent, via facsimile,
a questionnaire    asking about the plan’s recent survey activity. We sent a second
survey to nonresponding     plans after about 3 weeks, and then followed up by telephone



                                             B-l
with remaining nonresponding   plans after about 6-8 weeks. The universe for this
survey included 162 plans in 11 States. Eight of the 162 plans were invalid because
they no longer enrolled Medicaid beneficiaries, therefore our adjusted universe
included 154 plans. We received 105 completed questionnaires     in time to be included
in our analysis. Our adjusted response rate was 68 percent.

        We attempted    to conduct a non-respondent  analysis to determine how
nonresponding   plans differ from responding plans, if they do at all. Because we
lacked certain data elements, such as tax status and size of enrolled population  for
some plans, we were unable to complete the analysis. The results of our health plan
survey are not generalizable   to all plans.




                                           B-2 

                             APPENDIX                   C
                         Com4~m-s      0Nm       DRAFT REPORT




        In this appendix, we present in full the comments   from the Health    Care
Financing Administration   and the American Association     of Health Plans.




                                           C-l
    DEPARTMENT    OF HEALTH   &HUMAN     SERVICES                      Health Care Financing Administration



                                                                       The Administrator
                                                                       Washington, D.C.    20201




DATE:         APR 23 1997


TO: 	        June Gibbs Brown
             Inspector General

FROM: 	      Bruce C. Vlade
             Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Medicaid Managed Care:
           The Use of Surveys as a Beneficiary Protection Tool,” (OEI-01-95-00280)
        .
We reviewed the above-referenced report that finds surveys have been of limited use as a
beneficiary protection tool.

Our detailed comments on the report recimmendations are attached for your
consideration. Thank you for the opportunity to review and comment on this report.

Attachment
           Comments of the Health Care Financing Administration (HCFAI 

                 on Offrce of Insnector General (OIG) Draft Report: 

    “Medicaid Managed Care: The Use of Surveys as a Beneficiarv Protection Tool.” 

                                 (OEI-01-95-00280) 



OIG Recommendation

HCFA should either establish a work group or technical advisory group on Medicaid
beneficiary surveys or add surveys to the agenda of an existing group. Either group
should provide policy-level guidance on how to make cost-effective use of beneficiary
surveys.

HCFA Resuonse

We partially concur with the intent of the recommendation to provide policy-level
guidance on how to make cost-effective use of beneficiary surveys.

HCFA already has a Medicaid Managed Care Technical Advisory Group (MMCTAG)
that works in conjunction with the Medicaid Managed Care Team (MMCT) in the Office
of Managed Care (OMC). The MMCTAG is comprised of state Medicaid agency staff,
the American Public Welfare Association, and the MMCT staff. The MMCTAG
provides valuable input essential for the accuracy and completion of many-HCFA
projects. As part of its fiscal year 1996 agenda, the MMCTAG formed six work groups
to address issues they consider to be the most urgent in the rapid transition from fee-for-
service to managed care. One of these groups is working on consumer information,
which has as one of its goals the development of a document on survey instruments tested
and validated.

The report states beneficiary sufveys developed by state Medicaid agencies are developed
for different purposes and to meet various objectives. We agree with that assessment.
However, due to limited state resources, it is not feasible for states to develop surveys for
a single purpose. When they are developed and used for a single purpose, they are ody
one part of the overall assessment. The purposes of Medicaid surveys range from internal
assessment of a plan’s performance, to assessing how satisfied beneficiaries are with a
plan and its services, to identifying areas for potential improvement, etc. The purpose of
the survey dictates how it should be constructed, what should be included, to whom and
when it should be administered, and most importantly, how the results can and should be
compiled and utilized. Because of the variation among states’ administration and
coverage, it is very difficult to come up with one method or instrument that will satisfy
everyone’s needs. Although states are currently experimenting with different instruments
and formats, we believe they have obtained some meaningful information about
beneficiaries (maybe not what they started out to acquire, but nonetheless, useful).
Page 2

We concur with the need for additional policy-level guidance on survey use. HCFA is
already collaborating with the Agency for Health Care Policy and Research on the
development of its Consumer Assessment of Health Plans Survey (CHAPS). This survey
includes questions for the Medicaid population, as well as commercial and Medicare
populations. In addition, HCFA recently prepared and distributed copies of “Customer
Satisfaction Surveys for Medicaid Beneficiaries: A State Guide” to Medicaid Associate
Regional Administrators for release to their respective states for input. This document,
containing tiormation on specific survey instruments developed by states and national
organizations, will assist states in developing or improving existing customer satisfaction
surveys for the Medicaid population. Although we are making progress, there still needs
to be more work done in this area, particularly on the use of beneficiary survey results.

OIG Recommendation

HCFA should devote greater attention to how the Medicaid agencies are using
beneficiary surveys. It should revise its written guides for reviewing and monitoring .
Medicaid managed care initiatives to call attention to the importance of using beneficiary
surveys in more focused, strategic ways.

HCFA Response

We concur that some state surveys are very general, attempt to address too many issues at
once, and need to be more focused. Surveys are a very important part of states’
requirements under the Quality Assurance Reform Initiative (QARI). As states become
more experienced in survey design, analysis, and use, we expect the surveys to be more
focused in what questions they are trying to answer and the purposes they are used for.
We have, however, made some progress in this area and are working to improve it even
further. The existing MMCTAG established a work group on consumer information,
whose goal is to collect information on what Medicaid recipients want to know about
health plans and providers‘and how beneficiaries think information should be presented.
The MhKTAG also plans to work with Harvard Medical School and/or Rand in the
piloting of the CHAPS Medicaid survey. In addition, the QARI is being replaced with a
system that will contain quality standards for both Medicaid and Medicare. We
anticipate additional focus on the importance of surveys and baseline data to measure
demonstrable improvement in beneficiary care and outcomes. OMC also sponsors a
Managed Care College each year. We plan to include a special session on survey
development and use of survey data. Finally, as part of our continuing technical
assistance to regional office and state Medicaid staffl we will emphasize the importance
of surveys and how they can be used to monitor managed care initiatives.
       American Association of
      HEALTH PLAN3

April 11, 1997

June Gibbs Brown 

Inspector General 

Offrce of Inspector General 

Department of Health and Human Services 

330 Independence Avenue, SW 

Washington, DC 20201 


Dear Ms. Brown: 


On behalf of the American Association of Health Plans (AAHP), thank you for the opportunity to 

review and provide comments on the Office of Inspector General’s (OIG’s) draft inspection 

report, “Medicaid Managed Care: Use of Surveys as a Beneficiary Protection Tool.” AAHP 

represents approximately 1000 health plans serving over 100 million Americans nationwide. 

Many of AAHP’s members provide services to Medicaid beneficiaries. 


AAHP agrees with the basic findings and recommendations of the report. /&HP fully supports 

initiation of new efforts designed to improve information to beneficiaries about their enrollment 

options to help them make better informed c&ices. We also recognize that, for a number of 

reasons, State mandated surveys may be of limited value as a beneficiary protection tool and may 

not provide useful information to beneficiaries. 


AAHP specifically supports the recommendation that HCFA form a work group or technical 

advisory group to provide policy-level guidance on how to make cost-effective use of beneficiary 

surveys. We also appreciate and agree with the recommendation that HCFA should consider the 

relative costs of surveying beneficiaries with the relative usefulness of the survey results. 

Consideration of this issue is equally relevant whether the survey costs are incurred by the State 

Medicaid Agency directly or by the health plan. 


Our suggestions and comments are relatively ininor. We suggest several refinements to the 

Executive Summary to clarify a few issues and to give greater prominence to some important 

points made in the body of the report. The following are suggested revisions to the Executive 

summary: 


 0	    At the end of the second paragraph of the Background section of the Executive Summary,
       we suggest that the OIG add a sentence or two noting that there are also many other
       methods to measure plan performance, including HEDIS and the evaluation of other
       utilization data. Also, we suggest that the text note that to obtain a beneficiary
       perspective on health plans, surveys are rarely used alone and complement other types of
       performance measurement data.                     .
 0      In the next paragraph of the Executive Summary, we suggest that the narrative note that


        ---.---   -e-(...p-.-                 -   -   -   -   -   . ._   _   ___   __        ._




        1129 Twentieth          Street. N\V       �           Suite 600                 �    \Vnshineton.   DfJ 2W36   �    202-778-3200   �    FAX: 202-331-7487
June Gibbs Brown
April 11, 1997
Page 2

       other tools, such as descriptions of benefits, access requirements, and the delivery system,
       may assist the consumer in making informed enrollment decisions.

0	     We suggest that the Executive Summary note that there are two types of surveys. The
       first type, which is the focus of the report, is State mandated surveys (either conducted by
       the State Medicaid Agency or the health plan on its behalf). The second type of survey is
       one conducted voluntarily by health plans. We suggest that the Executive Summary note
       briefly that health plans frequently conduct their own surveys and that these surveys may
       lead to improvements by the plans. (This point is noted on page 10 of the draft report).

AAHP also recommends that the OIG suggest that HCFA obtain the participation of health plans
in its Workgroup activities.

Further, we suggest that the OIG identify as an issue for consideration the possibility of giving
health plans the discretion to decide, subject to State approval, the survey’s focus. The draft
report suggests that survey needs may vary among health plans. If so, it would be desirable to
give health plans the flexibility to decide-how best to meet those needs. This suggestion could be
incorporated in the fourth bullet on page 12 of the draft report.

Thank you again for the opportunity to comment on this draft report. If your staff would like to
discuss further our comments, please call me at (202) 778-3209 or Michelle Fried, Counsel for
Federal Programs, at (202) 778-8484.

Sincerely,


k&W        .
 Executive Director, Regulatory Affairs
                             APPENDIX                    D

                                        ENDNOTEB 



1. The Federal government      requires Medicaid agencies enrolling their beneficiaries
into managed care to meet certain quality assurance requirements.         Among these
requirements    are those that call for each managed care plan to have an internal
quality assurance plan, grievance procedure, and total enrollment comprised of not
more than 75 percent Medicaid and/or Medicare beneficiaries.         Federal regulations
also require the plans to allow disenrollment    on demand within 1 month of requesting
it, although this can be waived for a 6-month lock-in period. Statutory requirements
limit the manner in which plans can pay their physicians, generally referred to as the
physician incentive program.     Agencies must conduct periodic medical audits to ensure
quality and access of services and provide data on reasons for beneficiary
disenrollment.    Agencies must also ensure that an independent,     external review of the
quality of services be conducted annually for each managed care plan. The agencies,
of course, can build upon these Federal requirements,      and the Health Care Financing
Administration    can waive certain requirements   through the different waiver programs.

2. C. Baldwin, “Customer    Satisfaction Surveys for Medicaid Beneficiaries:   A State
Guide,” (Baltimore, MD:     Office of State Health Reform Demonstrations,      HCFA)
November 1996.

3. The 11 States are: Arizona, California, Florida, Massachusetts,    Minnesota,
Missouri, New York, Ohio, Oregon, Rhode Island, and Utah.

4. By technical quality of care we mean treatment, examinations,   follow-through,  and
preventive care as opposed to interpersonal    communications  and courtesy.   We base
this distinction on categories presented in the Draft Medicaid HEDIS document
published in July of 1995.

5. The agencies in our sample were all in various stages of the process of getting and
using encounter data to help them assess plan performance.     For the most part, as of
this writing, agencies lack validated encounter data. They also were in various stages
of requiring their plans to report HEDIS indicators.

6. R. H. Brook, C. J. Kamberg, and E. A. McGlynn, “Health System Reform and
Quality,” Journal of the American Medical Association 276(6) (August 14, 1996): 478
and Massachusetts   Healthcare Purchaser Group, “Cost/Quality Challenge,” March
1996.

7. 	 In Oregon, the State agency conducted a baseline survey in 1994, then conducted
another survey in 1996. The agency revised the second survey, thereby affecting the
direct comparability  of results between the two surveys. (The Oregon Health Plan



                                           D-l
Medicaid Demonstration Project: 1994 and 1996 Comparative Client Satisfaction Data,
Preliminary Aggregate Report.)

8. Minnesota Health Data Institute, “Evaluation    Report   of the Minnesota    Health   Data
Institute 1995 Consumer Survey,” (July 1996)

9. Joseph Mangano, Ed., “Oregon Consumers Favor Doctor          Data” Quality
Management Update 6(18) (September   18, 1996).

10. Robert Cunningham,    Ed., “Consumers Gaining Leverage in Quality Assurance
Arena,” Medicine & Health (June 17, 1996). See also Harold S. Luft, “Modifying
managed Competition    to Address Cost and Quality,” Health Affairs (Spring 1996): 23-
28 and Frederick Schneider Research, “Medicaid and Managed Care: Focus Group
Studies of Low Income Medicaid Beneficiaries in Five States,” (Washington DC: May
1996).

11. Henry J. Kaiser Family Foundation, “Americans as Health Care Consumers:              The
Role of Quality Information,” (October 1996) and Robert Cunningham,   Ed.,
“Consumers Gaining Leverage in Quality Assessment Arena.”

12. The Medicaid HEDIS (Health Plan Employer Data and Information         Set) Work
Group comprises individuals and organizations that worked together to develop
measures for monitoring the performance    of managed care plans serving the Medicaid
population. The National Committee for Quality Assurance sponsored the Work
Group in association with HCFA and the American Public Welfare Association.

13. The Agency for Health Care Policy and Research (AHCPR) is currently funding a
5-year project aimed, in part, at developing and testing questionnaires    to assess plans.
This project, called the Consumer Assessment of Health Plans Study (CAHPS), is at
year 3 and beginning to field test its questionnaires.  The CAHPS encompasses          all
types of health plans as well as the privately and publicly (Medicare and Medicaid)
insured.  The Health Care Financing Administration      has called for managed care
plans enrolling Medicare beneficiaries to use the CAHPS questionnaire.        Eventually
the AHCPR expects that its CAHPS questionnaires        will be available to interested
parties without charge.

14. The response rate was calculated after deducting 204 beneficiaries  identified       as
ineligible for reasons such as disconnected phones, moved out of the area, and
deceased.

15. Of the 17 respondents     that indicated they had not conducted any surveys that
included Medicaid beneficiaries in the past 2 years, 14 had plans to conduct such
surveys within the next year.

16. In another recent survey of health plans (with Medicare risk and cost contracts),
the Office of Inspector General also found great variety in plan approaches to surveys
(Office of Inspector General, HMO Customer Satisfaction Suweys, March 1996).



                                           D-2 

17. In another recent survey of health plans (with Medicare risk and cost contracts),
the Office of Inspector General found that plans used their survey results as much for
marketing as for improvements.   (Office of Inspector General, HMO Customer
Satisfaction Suweys, March 1996)

18. American    Association   of Health   Plans, “1995 AAHP    HMO PPO Trends        Report.”

19. The CAHPS aims to help consumers choose the best-suited health plan for their
needs by developing and testing questionnaires     to assess plans, reporting the survey
information  to consumers, and evaluating their usefulness.     This ambitious project
encompasses    the privately insured as well as the Medicaid and Medicare populations.
As of this writing, the CAHPS project is at year 3 and beginning to field test its
surveys.

20. HCFA, “Monitoring Guide for Medicaid Managed Care Initiatives,” Working
Draft (September   1996) and “Medicaid Pre-Implementation  Review Guide for Section
1115 Demonstration   Waivers,” Working Draft, (August 1995).

21. The 1981 amendments     also allow States to enroll Medicaid beneficiaries      in limited-
risk managed care organizations    (i.e., no risk for inpatient care) that fail to meet
Federal qualifications.

22. 	The following States have implemented      their 1115 waivers: Alabama, Arizona,
California, Delaware, Hawaii, Minnesota, Ohio, Oklahoma, Oregon, Rhode Island,
Tennessee,    and Vermont.   The following States have approved 1115 waivers that are
pending implementation:     Florida, Illinois, Kentucky, Maryland, and Massachusetts.
South Carolina has an approved waiver but no plans for implementation.

23. States with 1115 waivers under review are: Georgia, Kansas, Louisiana,          Missouri,
New Hampshire,    New York, Texas, Utah, and Washington.

24. Federal regulations define comprehensive      services as either inpatient hospital
services and one other mandatory service or three or more mandatory services
(42 CFR 434.21).      Mandatory services are defined in statute as inpatient and
outpatient  care, physicians’ services, and laboratory and diagnostic services, among
others (42 USC §1396d(a)).




                                             D-3 

